                                              AUDIT OF 


                                 NON-TAX DELINQUENT DEBT 


                                        WASHINGTON, DC 


                                     AUDIT REPORT NO. 9-11 


                                             July 28, 1999 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must nol be
released to the public or another agency without permission of the Office of Inspector General.
                              U.S. SMALL BUSINESS ADMINISTRATION 

                                  OFFICE OF INSPECTOR GENERAL 

                                       Washington, D.C. 20416 





                                                                           AUDIT
                                                                          REPORT
                                                               Issue Date: July 28, 1999
                                                               Number: 9-11



To:            Jane P. Butler, Associate Administrator
                for FYrd::lnr.i::ll tUc";"t<>n"~


From:
                  lFOIA & . le            1
               Jonncc. vye;7\.gmg Assistant Inspector General
                for Auditing

Subject:       Audit of Non-Tax Delinquent Debt

        Attached is a copy of the subject audit report. The report contains two findings with
three recommendations .

        The recommendations in this report are subject to review and implementation of
corrective action by your office in accordance with existing Agency procedures for audit follow­
up .
        Any questions or discussion of the issues contained in the report should be directed to
Garry Duncan at (202) 205-LFu :rA S<. '2.- ~




Attachment
                                  AUDIT OF NON-TAX DELINQUENT DEBT 

                                   SMALL BUSINESS ADMINISTRATION 

                                           WASHINGTON, DC 



                                                   TABLE OF CONTENTS 



                                                                                                                             Page

SUMMARy ........................................................................................................................ i

INTRODUCTION

           A; Background ........................................................................................................ 1 


           B. Audit Objective and Scope ..................................................... ........................... 2 


RESULTS OF AUDIT

Findings and Recommendations

           1. SBA has,not fully Implemented the Debt Collection Improvement Act.. ........ 3 


           2. Non-Tax Delinquent Debt Receivables were Reliable .. ... ................................ 7

APPENDICIES

           A - Schedule of Loans Reviewed, Status, and Identification of Loans that
               should have been Referred 


           B - SBA Management Response 


           C - Audit Report Distribution 

                                      SUMMARY 


        This audit was performed as part of a President's Council on Integrity and
Efficiency project to evaluate the effectiveness of the Government's efforts to collect
non-tax delinquent debt. The audit objectives were to determine whether the U.S. Small
Business Administration (SBA) complied with the collection requirements in the Debt
Collection Improvement Act of 1996 (DCIA) and whether the amount of delinquent debt
reported to Department of the Treasury (Treasury) was accurate. SBA had 21,510 loans
valued at $1. 7 billion that were delinquent over 180 days or charged off as of December
31, 1998. We statistically selected 88 loans valued at $6.6 million to review.

        SBA has neither fully implemented all of the provisions of the DCIA nor
established timeframes for full implementation. In its collection efforts, SBA used many
of the collection tools described in the DCIA and in Office of Management and Budget
(OMB) Circular A-129. Some delinquent debt, however, was not referred to Treasury
when established referral criteria were met. Twenty-two (25 percent) of the 88 loans
reviewed, valued at $1.5 million, should have been referred to Treasury. See Appendix A
for details on loans reviewed and those that should have been referred. In addition,
administrative wage garnishment and Federal wage matching collection tools were not
used.

        The $1. 7 billion in delinquent debt reported, as of September 30, 1998, to
Treasury on the Report on Receivables Due From the Public was reliable. Guarantee fee
receivables, however, were overstated by approximately $22.6 million. This occurred
because cancellations and modifications to the Guarantee Fee Accounts Receivable were
not being posted .

       The report contains recommendations to the Associate Administrator for
Financial Assistance to implement the remaining provisions of the DCIA.
Recommendations on collection actions regarding disaster home loans and the reliability
of guarantee fee receivables are addressed in separate reports.

        The findings in this report are the conclusions of the OIG's Auditing Division
based on testing 0 f the audi tee' s operations. The findings and recommendations are
subject to review, management decision, and corrective action by your office in
accordance with exiting procedures for follow-up and resolution.
                                   INTRODUCTION 


A.       BACKGROUND 

        With the enactment of the Debt Collection Improvement Act of 1996 (DCIA),
Congress placed new emphasis on the collection of delinquent debt. One of the primary
purposes of the DCIA is to maximize the collection of delinquent debts by ensuring quick
action through the use of all available collection tools contained in OMB Circular A-129,
"Policies for Federal Credit Programs and Non-Tax Receivables." When a debt becomes
seriously delinquent - over 180 days past due - agencies are required to refer these debts
to Treasury. Delinquent debt can be referred for the Treasury Offset Program (TOP)
whereby Treasury diverts all or part of a Federal payment due the debtor to the debtor
agency. Delinquent debt also can be referred for cross servicing whereby Treasury
pursues collection through such actions as sending demand letters, making telephone
calls, using skiptracing, or negotiating a compromise. Delinquent debts referred for cross
servicing are automatically included in TOP, but those referred for TOP are not
automatically included as part of cross servicing.

        The Small Business Administration (SBA) provides financial support to small
business concerns and to disaster victims, both homeowners and businesses, through
direct and guaranteed loans. Direct loans are originated and serviced by SBA under the
Disaster Assistance Program and fund long-range recovery for private-sector, non­
agricultural disaster victims. SBA guaranteed loans are originated and serviced by
participating lenders under the 7(a) Guaranteed Loan Program to assist small businesses
that cannot obtain financing on reasonable tenns through nonnal channels.

       OMB Circular A-129, " Policies For Federal Credit Programs and Non-Tax
Receivables ", provides several techniques for collecting delinquent debts:

     •   contacting borrowers within 30 days after a missed payment,
     •   restructuring the loan.
     •   compromising the amount of the debt,
     •   foreclosure,
     •   referral to the Justice Department for litigation, and
     •   garnishment of the borrowers' salary.

         In October 1997, SBA requested Treasury to designate SBA as a collection center
for its own debt. The request was based on the fact that SBA has the structure needed to
collect delinquent debts, Lises many of the available collection tools, and has the
accounting and information systems to provide comprehensive reports on collection
activities. Designation as a collection center would allow SBA to use the same collection
techniques used by Treasury. In March 1999, SBA requested a waiver from the
requirement to transfer to Treasury debt that is over 180 days delinquent if it was unlikely
SBA would be designated a debt collection center. As of the date of this report SBA had
not received a c.kc ision from Treasury on its requests.
       SBA currently is moving away from direct loan servicing. One method of
implementing the transition is through the sale ofSBA owned assets. SBA's budget for
Fiscal Year 1999 provides a timeline for selling purchased guaranteed loans and direct
loans by the end of fiscal year 2000. If the sales program is successful, asset sale would
become an ongoing project, thereby virtually eliminating delinquent government debt and
the need for collection activity.

B.     AUDIT OBJECTIVES AND SCOPE

        The audit objectives were to detennine if SBA had implemented the requirements
of the DCIA and to validate the $1.7 billion in delinquent debt reported to Treasury on
the SF-220 Schedule 9, Report on Receivables Due From the Public, as of September 30,
1998. To achieve the objectives, we reviewed SBA loan fIles for 88 loans, totaling $ 6.6
million. The loans were selected from a universe of 21 ,51 0 loans valued at $1.7 billion
that were delinquent for more than 180 days or charged off as of December 31, 1998.
The evaluation of the reliability of the reported delinquent debt to Treasury was done by
independent auditors as part of the financial statement audit for fiscal year 1998.

         To evaluate implementation of the DCIA requirements, we reviewed SBA loan
files and records showing loans transferred to Treasury; interviewed SBA portfolio
management program officials in Headquarters and SBA loan and liquidation officers in
district and branch offices; reviewed selected lender loan files ; and interviewed cognizant
lender personnel. During the review of SBA loan files, we also noted any documentation
that evidenced lender collection activity prior to purchase of the guarantee. We recently
completed an audit of collection actions for disaster home loans that supplements the
results discussed in Finding 1. SBA ' s independent auditors performing the annual
financial statement audit under the Chief Financial Officers Act verified the reliability of
the $1.7 billion delinquent debt reported to Treasury as of September 30,1998. The
results of their review are presented in Finding 2.

       The fieldwork was conducted from January through March 1999. The audit was
conducted in accordance with Government Auditing Standards.




                                             2

                                         RESULTS OF AUDIT 


FINDING 1 SBA has not fully Implemented                        Debt Collection Improvement

              SBA neither fully implemented all                        DCIA nor established
tmletJranles for full implementation.                               the collection tools
                                and in       Management        Budget (OMB) Circular A-I
                         debt was not       to Treasury when established          criteria were
              u,pnrU'_n"r1 of the      reviewed, valued at $1.5 million, should have
r"'~"' ....'~" to Treasury (see Appendix A). Although, SBA
delinquent debt for 81 (33 direct and 48 guaranteed) of the           reviewed, including
            that should         been      administrative       garnishment       Federal wage
matching were not used.

          Collection tools provided by the DeIA                OMS               A-129 include:

    •                                               A-129 requires an agency to         a written
                     payment to                   as soon as     debt becomes delinquent.
          '}.~",u"'."'.;)
                   are also                   to contact borrowers by             or In person.
          Contact with                                   to                cause of the
             identify                                  tool or tools to cure the

    •                                      (or workout)               several
                                                such as: (I) changing the          tenns
                                         financial            (2) temporarily reducing or
                                    (3) reducing              interest.
                                                than the total amount owed is                   as payment
                                               the debtor         lender.
                                              of delinquent debt to a              collection
    •                                                                       of the collateral
                                                                     costs of foreclosure. to the debt.
    • 	 Litigation          Referral to the             of               legal
    411   Garnishment - Administrative garnishment an individual's non-Federal
          government pay (under    DCIA a court order is not
    • 	 Treasury Offiet Program -             to Treasury                        for a match of 

        delinquent         files against Federal payment 

        payment is intercepted      the debt is offset. 


Exemptions from referral

          The DCJA      Treasury                     several         itions that          a delinquent
debt from referral including:
    •   debt referred to a private collection agency or a designated collection center,
    •   debt scheduled for sale under an asset sales program within one year or longer if
        approved by OMB, 

    •   debt in foreclosure or litigation,

    •   debt collectible through internal agency offset within three years,
    •   debt owed by a deceased person, and
    •   debt that is included in a bankruptcy (Chapter 7, 11, or 13) or has been discharged
        by bankruptcy.

 Loans that should have been referred

          We considered that debt should have been referred to Treasury whenever it
  became 180 days delinquent unless there was evidence in the loan file indicating that one
  of the above exemptions applied. The loan files did not indicate that an exemption
  applied to any of the 22 loans that should have been referred when they became 180 days
  delinquent. Currently, loan and liquidation officers are responsible for coding loans for
  referral to Treasury in the loan accounting system. If a loan file is not actively being
  worked and a referral code is not entered in the loan accounting system the loan could
  become 180 days delinquent and not be referred to Treasury . The following table shows
. SBA's compliance with the DCIA by direct and purchased loans.

                                                                Direct           Purchased
                      Description                               Loans              Loans             Total
  Loans Reviewed                                                 39                 49                88
  Collection Tools used                                          33                 48                81
  No Evidence of Collection Tools being used                       6                  I                7
  Should have been referred (see note)                            15                   7              22

         Note: 	 Subsequent to our review of the loan files, one loan was referred for crossing servicing
                 and notices of pending referral were sent to borrowers for four additional loans .

 Loans exempt from referral

         Sixty-six loans met criteria exempting them from referral to Treasury. As shown
 in the following table, some loans met more than one exemption criteria.

                      Exemption from Referral                    No. of Exemptions
                  Bankruptcy                                                33
                  Compromise                                                14
                  Restructure (workout)                                      7
                  Collateral (foreclosure)                                  26
                  Litigation                                                10
                  Other (Dcath. Investigation. etc.)                        10

          The J<) direct loans originated and serviced by SBA are debls to the Government
 at the time of disburscment. The 49 guaranteed loans. originated and serviced by



                                                     4
participating lenders, however, are not debts to the Govenunent until.SBA has purchased
the loan guarantee. Unlike direct loans, guaranteed loans are not subject to the DCIA
upon delinquency by the borrower. These loans only become subject t~ the D~IA when
the loan guarantee is purchased by SBA and a debt to the Govenunent IS established.
This generally occurs up to 120 days after the lender received the last payment. Lenders
often continue to service delinquent loans after purchase on behalf of the Agency;
however, SBA is responsible for ensuring that the appropriate collection techniques are
used for debt collection.

Direct loans

       Direct business loans consisted of loans made under the 7(a) and the disaster
programs. Home loans were made under the disaster program and were reviewed
separately in an audit of collection efforts at the home loan servicing centers. Fifteen
business loans should have been referred to Treasury but were not and collection action
should have been initiated sooner for 113 disaster home loans. SBA, therefore, may not
have maximized recoveries for direct loans.

       Business Loans. SBA used debt collection tools described in the DCIA and OMB
Circular A-129 in servicing 33 of 39 delinquent business loans. The files for the
remaining six loans contained no evidence of attempts to collect the debts. The principal
tools used were borrower contact, loan restructuring, and referral for collection. Fifteen
of the 39 business loans met the criteria for referral but were not referred to Treasury, as
required.

        Disaster Home Loans. A separate audit conducted by the Office of Inspector
General showed that Disaster Home Loan Servicing Centers (Centers), which are
responsible for servicing delinquent home loans, generally did not comply with the
collection and referral requirements of the DCIA. The audit showed that collection and
liquidation actions should have been initiated earlier for 113 of the 267 past due loans
reviewed. In addition. 46 of 165 charged off disaster home loans reviewed were not
referred to litigation or Treasury for further collection actions. In February 1998, SBA
established a goal to contact delinquent borrowers weekly to improve timeliness of
borrower contacts and amounts collected. This goal was met in February 1999 and SBA
reported the currency rate and cash collections had increased about 1.5 percent and 19
percent, respectively. The audit report on the Centers made recommendations to ensure
that improved collection actions continue and delinquent debt is referred for litigation or
to Treasury for collection actions. In fiscal year 1998, SBA began referring unsecured
disaster home loans that were over 180 days delinquent to Treasury.

Guaranteed loans

         SBA used collection techniques required under the DCIA and OMB A-129 on 48
of the 49 guaranteed loans reviewed. Seven of the 49 loans that met the conditions for
                    "or
rde rra I to Treasury    i'urther collection were not referred. As a result. maximization of
recoveries Illay not have been achieved for the seven loans .



                                             5
Lender serviced purchased loans

        SBA did not refer purchased guaranteed loans that continued to be serviced by the
lender for administrative offset. Once SBA has purchased a guarantee, the loan becomes
subject to the provisions of the DeIA and the tools available under the DeIA should be
used, if appropriate. By excluding purchased loans from referral to TOP, SBA
automatically excludes the use of an important collection tool and loses an opportunity to
collect delinquent debt.

Garnishment

         The DeIA permits agencies to garnish non-Federal wages of delinquent
borrowers to collect non-taX delinquent debt without having to obtain a court order
(administrative garnishment). Before an individual's wages can be garnished, however,
the debtor must be notified in writing of the intent to garnish at least 30 days prior to
initiating garnishment proceedings. The agency must provide the debtor an opportunity
to inspect and copy agency records related to the debt, to establish a repayment
agreement, and to receive a hearing concerning the existence or amount of the debt and
the tenns of a repayment schedule. SBA is responsible for prescribing regulations to be
followed in conducting administrative garnishment hearings.

        SBA's Office of Hearings and Appeals is writing a regulation prescribing the
procedures to be followed in implementing the administrative garnishment process. At
the time of the audit, SBA had not established a timetable for completing the regulations
so the administrative garnishment process could be used as a collection tool.

Salary offset

        SBA previously matched delinquent disaster home loan debtors with the payrolls
for the Department of Defense (DOD) and the U.S. Postal Service (USPS), but stopped
matching with the USPS payroll in calendar year 1997 because of minimal results and
SBA's ability to verify postal service employment through other sources. In Fiscal Year
1998, problems were encountered with reading DOD automated information; therefore, a
DOD file match was not accomplished in 1999. Since Treasury is scheduled to
implement Federal salary matching as part of TOP during the latter part of2000, no
recommendation is being made.

Recommendations:                                                                  .
       We recommend that the Associate Administrator for Financial Assistance:

       I A. 	   Revise the loan accounting system procedures to automatically refer all
                loans delinquent over 180 days to Treasury unless an exemption code is
                entered into the system.
       lB.     Refer purchased loans that continue to be serviced by the lender to
               Treasury for offset.

       1C.     Establish a timeframe for implementing administrative garnislunent of
               non-Federal wages.

Management Response

        The Acting Assistant Administrator for Portfolio Management agreed with the
recommendations and stated that: (i) system changes are in process to refer all loans
delinquent over 180 days to Treasury for administrative offset unless coded exempt; (ii)
lender serviced purchased loans will be referred to Treasury after the referral process for
SBA loans has been implemented; and (iii) timeframes have been established for
implementing wage garnishment. Complete management comments are presented in
Appendix B.

Evaluation of Management's Response

       The actions taken or planned are responsive to our recommendations.

FINDING 2 Non-Tax Delinquent Debt Receivables were Reliable

       As of September 30, 1998, SBA accurately reported to Treasury on the Report on
Receivables Due From the Public (Schedule 220-9) that it had $1.7 billion in delinquent
debt. The receivable for loan guarantee fees, however, was overstated by about $22.6
million because loan modifications or cancellations were not recorded in the loan
accounting system.

        The CPA firm auditing SBA's financial statements reconciled the total delinquent
receivables reported on the Schedule 220-9 to the general ledger. Because of differences
in the date fields in the file furnished the auditors and the file used to prepare the
Schedule 220-9, the age of the accounts in the general ledger could not be detennined.

        SBA does not assess collectibility of receivables for an individual loan. SBA
establishes an Allowance for Doubtful Accounts and uses that as a basis for estimating
the amount of non-collectible receivables. The auditors review showed that the SBA's
method used to compute the estimate for the Allowance for Doubtful Accounts was
acceptable and the amount was considered reasonable.

        The amount of the guarantee fee charged to lenders is based on the dollar amount
of the loan. Generally, the fees are payable within 90 days of SBA approval. Once the
loan application is approved , SBA, the lender, and the borrower execute a loan agreement
containing the conditions and requirements for the loan. Among the conditions and
requirements are time limits for the disbursement of Joan proceeds. This time limit
cannot be exceedeJ withollt rrior SBA arrroval. !fthe loan is canceled or modified,
SBA refunds or adjusts the guarantee fee. The guarantee fee receivable account as of



                                             7

September 30, 1998, included 9,014 loans with fees outstanding of$22.6 million for
loans with approval dates of September 30, 1997 or earlier. Office of Chief Financial
Officer personnel stated SBA was aware of the problem and it should be corrected in the
near future. The overstatement and recommendation for corrective action will be
included in the management letter to be issued as part of the financial statement audit.

        1bis report does not include a recommendation regarding the financial
information on SBA's receivables. Any required adjustments to the financial statements
and/or account balances will be made by our financial auditors when their report is
issued.




                                          8

                                                                                Appendix A
                                                                                 Page 1 of2

         SCHEDULE OF LOANS REVIEWED, STATUS, AND INDENTIFICATION
               OF LOANS THAT SHOULD HAVE BEEN REFERRED


                Loan                                                           Loans That Should Be
Sample
Number         Number                    Borrower            Loan Status              Referred
                                                    ...,                       Direct    Guaranteed
           r       '­ r                                    In Liquidation
  1
                        -                                  Charged Off                        X
  2
                        -                                  Charged Off
  3
  4
                        -                                  In Liquidation .
  5
                        -                                  Regular Servicing
  6
                        -                                  In Liquidation
  7
                        -                                  Charged Off
  8
                        -                                  Charged Off
  9
                        -                                  In Liquidation
  \0
                        -                                  In Liquidation
  I1
                        -                                  Charged Off
                        -                                  Charged Off                        X
  12
  13
                        -                                  Charged Off           X
  14                -                                      In Liquidation                     X
  15
                    -                                      In Liquidation
                    -                                      Charged Off                        X
  16
  17
                    -                                      In Liquidation        X
  18
                    -                                      Charged Off                        X
  19
                    -                                      In Liquidation
  20
                    -                                      In Liquidation
  21
                    -                                      In Liquidation        X
                    -                                      Charged Off
  22
  23
                    -                                      Charged Off
                    -
  24                                                       Regular Servicing
  25
                    -                                      (n Liquidation        X
                    -
  26                                                       In Liquidation
                    -
  27                                                       [n Liquidation        X
                    -
  28                                                       Regular Servicing     X
                    -~
  29                                                       (n Liquidation
                    -~
  30                                                       In Liquidation
                    -~
  31                                                       In Liquidation        X
                    -~
  32                                                       In Liquidation
                    -~
  33                -I­
                                                           Charged Off
  34                -I-
                                                           In Liquidation
  35                                                       In Liquidation
                    -~
  36                                                       In Liquidation
                    -~
  37                -I­
                                                           [n Liquidation
  38                -I-
                                                           [n Liquidations
  39                                                       In Liquidations
                    -~

  40                                                       In Liquidations
                    -~
  41                                                       In Liquidations
                    -I­
  42                                                       Regular Servicing
                    -
  43                                                       Charged Off
  44
                        -                                  Charged Off                        X
  45       l       J- L                              -l    Charged Off


                            FOIA   Ex.   ~ 

                                                                                 Appendix A
                                                                                  Page 20f2

         SCHEDULE OF LOANS REVIEWED, STATUS, AND INDENTIFICATION
               OF LOANS THAT SHOULD HAVE BEEN REFERRED


                Loan                                                            Loans That Should Be
Sample
               Number                      Borrower           Loan Status              Referred
Number
                                                                                Direct     Guaranteed
                   1 -... r                            1
  46       r                                                Charged Off
  47
                    -                                       In Liquidations       X
  48
                    -                                       Charged Off
  49
                    -                                 ..    CbargedOff            X
  50
                    -                                       Charged Off
  51
                    -                                       Charged Off           X
  52                -                                       In Liquidations       X
  53
                    -                                       In Liquidations
  54                -                                       CbargedOff
  55                -                                       In Liquidations       X
  56
                     -                                      In Liquidations
  57
                     -                                      In Liquidations
  58
                     -                                      In Liquidations
  59
                     -                                      Charged Off
  60
                     -                                      In Liquidations
  61
                     -                                      Charged Off
  62
                     -                                      Charged Off
                     -                                      In Liquidations       X
  63
                     -                                      In Liquidations
  64
  65
                    -                                       Charged Off
  66
                    -                                       Charged Off
  67
                    -                                       Charged Off
  68
                    -                                       Charged Off
  69
                    -                                       Charged Off
  70                -                                       In Liquidations
  71
                    -                                       In Liquidations
  72
                    -                                       In Liquidation
  73
                    -                                       In Liquidation                     X
  74
                    -                                       In Liquidation
  75
                    -                                       In Liquidation
  76
                    -                                       In Liquidation        X
  77
                    -                                       Charged Off
  78
                     -             .                        Charged Off
  79
                     -                                      In Liquidations
  80
                     -            ..
                                                            Charged Off
                     ......:.....-~.
  81                 _ .                                    Regular Servicing     X
  82                                                        In Liquidation
  83                 -                                      In Liquidation
                     -
  84                                                        Charged Off
                     -
  85                                                        Charged Off
                     -
  86                                                        Charged Off
                     -
  87                                                        In Liquidation
  88           L   ...1­               L               .J   In Liquidation
                                                                                  AppendixB
                      u.s. SMALL BUSINESS ADMINISTRATION                          Page 10f2
                               WASHINGTON,   D.C. 20416




DATE: 	       July 1, 1999

TO: 	         Garry Duncan, Acting Assistant Inspector General for Auditing

FROM: 	

SUBJECT: 	
              Arnold S. Rosenthal, AAlPM     ,J fu -r:- A-
                                             LL
                                                             f   x..


              Draft Audit Report - Audit ofNon-Tax Delinquent Debt
                                                                       V
                                                                                  1
We appreciate the opportunity to review the above draft audit report and have the
following comments on your recommendations:

1A.    Revise the loan accounting system procedures to automatically refer all loans
delinquent over 180 days to Treasury unless an exemption code is entered into the
system.

Comment: We agree with this recommendation and are working with the Office of
Chief Information Officer (OCIO) to implement the systems changes to refer all loans
delinquent over 180 days to Treasury for purposes of administrative offset (TOP) unless a
loan is coded exempt because of a pending workout, bankruptcy or other proceeding that
would not be consistent with offset. We anticipate that the systems changes will be
completed by August 31, 1999, and that field office instructions will be issued by that
date.

lB.     Refer purchased loans that continue to be serviced by the lender to Treasury
for offset.

Comment: We agree with this reconunendation. First, h0-w:ever, we will implement the
referral process for SBA serviced loans, and then for lender serviced accounts after any
systems problems are identified and corrected for the SBA serviced portfolio. Also, we
need to ensure that lenders are aware that their loans in liquidation may be offset after
guaranty purchase so they can notify SBA to remove loans from the offset process if an
offset would impair ongoing proceedings including foreclosure or litigation, or adversely
affect other actions such as baru<Iuptcy.

 Ie.   Establish a timeframe for implementing administrative garnishment of non-
 Federal wages.
                                                                                       AppendixB
                                                                                       Page 2 of2
Comment: We agree with this recommendation. We are coordinating with the Office of
Hearings and Appeals and the Office of General Counsel for publication of wage
garnishment regulations. A draft of the regulations has been completed and will be put
into clearance shortly. Initial target dates are the following:

• 	 9/30199 - publication of proposed regulations in the Federal Register.
• 	 11130/99 - publication of final regulations.
• 	 12130/99 - field office notice issued or amendment to SOP 50 51 advising field
    offices of new procedures.

Finally, as a matter of information, we note that of the 22 cases in your sample that you
indicate should have been referred to Treasury:

•	   2 have been transferred to Treasury for cross servicing
•	   3 are marked "workout - don't refer"
•	   5 are coded bankruptcy, and
•	   4 are marked "refer."

Of the remaining 8 loans~ all except one are classified in regular servicing or liquidation
and should be referred when systems changes are implemented by OCIO. The other loan
is a charged off account that apparently has not been sent to Treasury. We are checking
to determine why this has not occurred.




                                            2

                                                                                                                    Appendix C


                                 OFFICE OF INSPECTOR GENERAL

                                   AUDIT REPORT DISTRIBUTION



Recipient                                                                                                   Number of Copies 


   Associate Administrator for 

    Financial Operations .............................. ~ ........................................................... 1 


   Associate Deputy Administrator for 

    Capital Access .................................................................................................... 1 


   Associate Administrator for 

    Portfolio Management ....................................................................................... 1 


   General Counsel .................................................................. .................................2 


   Office of the Chief Financial Officer.. ................................................................. 1 

   Attn: Jeff Brown 


   General Accounting Office ............. ... ................................. ................................. 1 

